<html>
<title> - INVESTING IN THE FUTURE OF THE FEDERAL WORKFORCE: PAID PARENTAL LEAVE IMPROVES RECRUITMENT AND RETENTION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
 INVESTING IN THE FUTURE OF THE FEDERAL WORKFORCE: PAID PARENTAL LEAVE 
                   IMPROVES RECRUITMENT AND RETENTION

=======================================================================

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                                and the

                        JOINT ECONOMIC COMMITTEE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2008

                               __________

                           Serial No. 110-114

                               __________

Printed for the use of the Committee on Oversight and Government Reform 
                    and the Joint Economic Committee


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
46-711 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

                        DANNY K. DAVIS, Illinois
ELEANOR HOLMES NORTON, District of   KENNY MARCHANT, Texas
    Columbia                         JOHN M. McHUGH, New York
JOHN P. SARBANES, Maryland           JOHN L. MICA, Florida
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DENNIS J. KUCINICH, Ohio, Chairman   JIM JORDAN, Ohio
WM. LACY CLAY, Missouri
STEPHEN F. LYNCH, Massachusetts
                      Tania Shand, Staff Director
                        JOINT ECONOMIC COMMITTEE

            CHARLES E. SCHUMER, New York, Senator, Chairman
      CAROLYN B. MALONEY, New York, Representative, Vice Chairman

               SENATE                               HOUSE

EDWARD M. KENNEDY, Massachusetts     MAURICE D. HINCHEY, New York
JEFF BINGAMAN, New Mexico            BARON P. HILL, Indiana
AMY KLOBUCHAR, Minnesota             LORETTA SANCHEZ, California
ROBERT P. CASEY, Jr., Pennsylvania   ELIJAH E. CUMMINGS, Maryland
JIM WEBB, Virginia                   LLOYD DOGGETT, Texas
SAM BROWNBACK, Kansas                JIM SAXTON, New Jersey
JOHN E. SUNUNU, New Hampshire        KEVIN BRADY, Texas
JIM DeMINT, South Carolina           PHIL ENGLISH, Pennsylvania
ROBERT F. BENNETT, Utah              RON PAUL, Texas              

                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 6, 2008....................................     1
Statement of:
    Beard, Daniel, Chief Administrative Officer, U.S. House of 
      Representatives; and Nancy Kichak, Associate Director for 
      Strategic Human Resources Policy, U.S. Office of Personnel 
      Management.................................................     6
        Beard, Daniel............................................     6
        Kichak, Nancy............................................    13
    Kelley, Colleen, president, National Treasury Employees 
      Union; Mary Jean Burke, first executive vice president, 
      American Federation of Government Employees, AFL-CIO; and 
      Amy Costantino, Federal employee...........................    58
        Burke, Mary Jean.........................................    65
        Costantino, Amy..........................................    73
        Kelley, Colleen..........................................    58
    Waldfogel, Dr. Jane, professor of social work, the Columbia 
      University; Sharyn Tejani, senior counsel, National 
      Partnership for Women and Families; and Dr. Vicky Lovell, 
      director of employment and work-life programs, the 
      Institute for Women's Policy Research......................    26
        Lovell, Vicky............................................    41
        Tejani, Sharyn...........................................    33
        Waldfogel, Jane..........................................    26
Letters, statements, etc., submitted for the record by:
    Beard, Daniel, Chief Administrative Officer, U.S. House of 
      Representatives, prepared statement of.....................     8
    Burke, Mary Jean, first executive vice president, American 
      Federation of Government Employees, AFL-CIO, prepared 
      statement of...............................................    67
    Costantino, Amy, Federal employee, prepared statement of.....    75
    Kelley, Colleen, president, National Treasury Employees 
      Union, prepared statement of...............................    60
    Kichak, Nancy, Associate Director for Strategic Human 
      Resources Policy, U.S. Office of Personnel Management, 
      prepared statement of......................................    15
    Lovell, Dr. Vicky, director of employment and work-life 
      programs, the Institute for Women's Policy Research, 
      prepared statement of......................................    43
    Tejani, Sharyn, senior counsel, National Partnership for 
      Women and Families, prepared statement of..................    35
    Waldfogel, Dr. Jane, professor of social work, the Columbia 
      University, prepared statement of..........................    28


 INVESTING IN THE FUTURE OF THE FEDERAL WORKFORCE: PAID PARENTAL LEAVE 
                   IMPROVES RECRUITMENT AND RETENTION

                              ----------                              


                        THURSDAY, MARCH 6, 2008

        House of Representatives, Subcommittee on Federal 
            Workforce, Postal Service, and the District of 
            Columbia, Committee on Oversight and Government 
            Reform, joint with the Joint Economic 
            Committee,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 9:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Danny K. Davis 
(chairman of the Federal Workforce, Postal Service, and the 
District of Columbia Subcommittee) presiding.
    Present: Representatives Davis of Illinois, Marchant, 
Maloney, and Sarbanes.
    Staff present from the Federal Workforce, Postal Service, 
and the District of Columbia Subcommittee: Tania Shand, staff 
director; Lori J. Hayman, counsel; Mason Alinger, minority 
legislative director; Alex Cooper, minority professional staff 
member; and LaKeshia N. Myers, clerk.
    Staff present from the Joint Economic Committee: Nan 
Gibson, deputy staff director; Stephanie Dreyer, policy 
analyst; and Heather Bouchey, senior economist.
    Mr. Davis of Illinois. The subcommittees will come to 
order.
    This is an hearing entitled, ``Investing in the Future of 
the Federal Workforce: Paid Parental Leave to Improve 
Recruitment and Retention.''
    I want to welcome Vice Chair Maloney, Ranking Member 
Marchant, members of the subcommittee and members of the Joint 
Economic Committee, hearing witnesses and all of those in 
attendance. I welcome you to the Federal Workforce, Postal 
Service, and the District of Columbia Subcommittee and Joint 
Economic Committee Hearing entitled, ``Investing in the Future 
of the Federal Workforce: Paid Parental Leave to Improve 
Recruitment and Retention.''
    The purpose of the hearing is to examine the merits of the 
Federal Employees Paid Parent Leave Act of 2007, H.R. 3799, 
which provides that all Federal employees receive 8 weeks of 
full pay and benefits for leave taken for the birth or adoption 
of a child.
    Hearing no objection, the Chair, Vice Chair, ranking member 
and subcommittee members will each have 5 minutes to make 
opening statements, and all Members will have 3 days to submit 
statements for the record. I will begin with mine.
    Members of the subcommittee, members of the Join Economic 
Committee, especially Vice Chair Carolyn Maloney, and hearing 
witnesses, welcome to the subcommittee's joint hearing on paid 
parental leave for Federal employees.
    Today's hearing will examine the merits of H.R. 3799, the 
Federal Employees Paid Parental Leave Act of 2007, the act 
introduced by Vice Chair Carolyn Marilyn. The act provides that 
all Federal employees receive 8 weeks of full pay and benefits 
for leave taken for the birth or adoption of a child.
    The issue of parental leave is an important one, and I am 
pleased to be a cosponsor of this legislation.
    The United States is far behind the world in offering paid 
leave for parents: 168 countries offer guaranteed paid leave to 
women in connection with childbirth; 98 of these countries 
offer 14 or more weeks paid leave. The United States guarantees 
no paid leave for mothers in any segment of the work force.
    The Family Medical Leave Act, enacted in 1993, added 12 
weeks of job-protected leave for the birth or adoption of a 
child. While this unpaid leave has helped millions of families, 
many employees have been unable to take time off to care for a 
new child or a seriously ill loved-one, because they cannot 
afford the lost pay.
    H.R. 3799 remedies this problem for Federal employees and 
will bring the United States in line with the rest of the 
world.
    The United States is supposed to be a world leader. In this 
area, we have been followers. It is time for us to catch up and 
provide paid family leave for Federal employees.
    During the markup of H.R. 3799, I will offer an amendment 
that directs the Government Accountability Office to study the 
feasibility of providing a disability insurance benefit to 
Federal employees. The disability insurance benefit, excluding 
paternal leave, would include paid time off for Federal 
employees caring for a spouse, child or parent that has a 
serious health condition and cannot care for themselves and/or 
a Federal employees that has a serious health condition that 
renders him or her unable to perform their job functions.
    GAO would also analyze disability insurance benefits that 
are currently being offered by States, local governments and 
the private sector.
    Today, I will introduce legislation that will extend the 
maximum age to quality for coverage for dependents under the 
Federal Employees Health Benefits Program from age 22 to age 
25. Young adults are the fastest growing age group among the 
uninsured.
    While the current law provides health insurance until age 
22, studies such as the one done by the Commonwealth Edison 
Fund, which is an organization that aims to promote a high 
performing healthcare system in the United States, found that 
college-educated or not, 22 year olds face waiting periods, 
temporary positions and lower wage jobs as they enter the job 
market. Healthcare is not available to them at a price they can 
afford.
    Several States have enacted new legislation to avert this 
health crisis.
    Providing Federal employees with paid parental leave and 
raising the maximum age to quality for the FEHBP from 22 to 25 
will increase worker morale and improve productivity by 
creating a more family friendly environment for Federal 
employees.
    I thank all of you for being here today and look forward to 
the witness testimonies.
    I now yield to the Vice Chair of the Joint Economic 
Committee, Mrs. Maloney.
    Mrs. Maloney. Thank you so much, Chairman Davis, for 
holding this hearing on this incredibly important issue and, 
ranking member, we thank you.
    Danny and I have a long history of successes, first with 
the census. We worked hand in glove to get a more accurate 
count and later with the Postal Bill that took us maybe 10 
years to pass. It just never seemed to get done, but we did get 
a balanced and fair bill passed.
    I hope that our success will be a winning streak on this, 
and we will be able to report this out of the committee and 
pass it and get this important issue into the lives of Federal 
employees and their families.
    I do want to thank the witnesses for being here to testify 
today.
    Very clearly, I know all of us understand that the American 
workplace has not kept pace with the changing needs of workers 
and families. Both Ozzie and Harriet go to work now. So most 
families no longer have a stay at home parent to care for a new 
child, and they can't afford to forego pay for any length of 
time.
    Experts in child development tell us that mothers need time 
to recover from childbirth and that mothers and fathers alike 
need time to care for and bond with their new baby.
    All Americans have the right to job-protected leave under 
the Family and Medical Leave Act. I must say that was the first 
bill I voted for in 1993 when I came here as a new Member of 
Congress. Yet, very little since then has passed to help 
parents balance work and family. For a country that talks about 
family values, we should be doing more to help our hardworking 
men and women.
    I just feel very strongly about this. When I was expecting 
my first child, I was working for the State of New York, and I 
called them up and I asked them about their leave policies. 
They told me, and this is a true story. They said, we don't 
have any leave policies. Women just leave.
    There was no consideration, no Family and Medical Leave. 
You just left.
    She said, maybe you should apply for disability.
    Well, pregnancy is not disability, and I would never do 
that for pregnancy.
    But, in any event, many women have been afraid of losing 
their jobs because of doing the wonderful thing of having a 
child, and the United States is very, very far behind the rest 
of the world. We are the only industrialized country that does 
not ensure paid family leave for all our workers.
    In fact, a recent report by the Government Accountability 
Office that I requested shows that the United States lags far 
behind other industrialized countries in providing policies 
that help families balance the competing demands of work and 
family responsibilities. You can go to my government Web site 
and get this entire report.
    The European Union requires that member countries offer a 
minimum of 14 weeks of paid maternity leave as a basic 
employment standard, but most countries offer more than the 
minimum.
    Federal workers, like many U.S. workers, do not have access 
to paid parental leave, so they are forced to choose between 
their paycheck and their new child. Federal employees who 
become new parents do have the option of using their accrued 
sick days and vacation time or tapping into a leave bank.
    This may work for the lucky families who never get sick, 
never need a vacation and are happy to rely on the kindness of 
strangers but, as one of our witnesses will tell us this 
morning, even the best prepared workers face difficult choices 
when children need their care.
    As our country's largest employer, the Federal Government 
should be leading the way in providing a family friendly work 
environment, but it is not. The Joint Economic Committee 
released a report yesterday that I requested, which shows that 
the Federal Government lags far behind Fortune 100 companies in 
providing paid family leave as part of their benefits package. 
You can read the report on my Web site, www.maloney.house.gov.
    Fortune 100 companies overwhelmingly offer mothers paid 
leave lasting 6 to 8 weeks long, yet the Federal Government has 
no family leave policy beyond Family and Medical Leave. With 
only 319 days left of the Bush administration, the President's 
Office of Management and Personnel is here today to tell us 
only about their plan for a short-term disability, but this 
plan falls fall short of being a paid family leave policy.
    The lack of paid family leave puts Federal agencies at a 
disadvantage when competing for the best and the brightest 
employees. Our Federal work force is aging as agencies have 
found it difficult to recruit and retain younger workers.
    It is probably one of my children calling. I will take it 
in the other room.
    Providing paid parental leave would encourage younger 
workers, who may be considering having a family, to stay with 
the Federal Government. We need to keep these workers. If we as 
a country truly value families, then we need new policies and 
investments that support our working families and set out 
children on a path of success early in life.
    In the absence of a Federal paid leave program, California 
and Washington have passed paid family leave laws. I am told 
New Jersey just passed one. New York has a bill pending before 
their legislature.
    When we pass H.R. 3799, over 2.6 million workers in the 
United States will have the right to paid parental leave, and 
we will be setting a standard for the rest of the Nation to 
follow.
    Mr. Chairman, I thank you for your outstanding leadership 
and commitment to this really important issue to American 
families and Federal workers. Thank you.
    Mr. Davis of Illinois. Thank you, Representative Maloney.
    We will now go to the ranking member, Mr. Marchant.
    Mr. Marchant. Good morning, Mr. Chairman, members of the 
subcommittee. I want to thank the chairman today for holding 
this hearing.
    If you visit any suburban soccer field in America today, 
parent after parent will tell you that trying to balance work 
responsibilities and family responsibilities is an ongoing 
battle. Obviously, this battle is the most intense in the weeks 
right after the time a child is born or joins a family through 
adoption.
    So I come to today's hearing, interested to hear how this 
suggested expansion of paid Federal leave might be viewed by 
Federal employees. Is there call for increased paid family 
leave or are Federal employees asking for other types of new 
coverage instead? How will this new increased benefit square 
against private sector benefits?
    It is important to make sure that Federal jobs are as 
competitive and appealing as possible but, as good stewards of 
the taxpayers' dollars, we have to be strategic in the way we 
choose to improve the Federal workspace.
    It should also be pointed out that we to understand the 
stress such an expansion of benefits places on the employees 
required to fill in while fathers and mothers take this needed 
leave.
    It is important that we make choices here that balance the 
families' needs with the needs of the government and understand 
the direct and indirect cost involved before we proceed with 
the plan. Hopefully, we can find a way to satisfy all of these 
varied interests in one legislative vehicle.
    Thank you.
    Mr. Davis of Illinois. Thank you very much, Mr. Marchant.
    We will now hear from our witnesses, and let me introduce 
them.
    Mr. Dan Beard is the third Chief Administrative Officer for 
the House of Representatives. Dr. Beard returned to the House 
of Representatives at the start of the 110th Congress after 
serving as a senior advisor for the consultant firm, Booz Allen 
Hamilton, Inc. Previously, he spent 10 years on the staff of 
the House Appropriations and Natural Resources Committees.
    His three decades of experience in policy affairs and 
management issues also include positions with the Senate, White 
House, Interior Department and the Library of Congress.
    Thank you, Dr. Beard, for being here.
    Ms. Nancy Kichak is the Associate Director for Strategic 
Human Resources Policy for the U.S. Office of Personnel 
Management. She leads the design, development and 
implementation of innovative, flexible, merit-based human 
resources policy.
    Of course, it is policy that all witnesses be sworn in 
before this committee, so if you would stand and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that each 
witness answered in the affirmative.
    Of course, your entire statement is already included in the 
hearing record.
    The green light indicates that you have 5 minutes to 
summarize your statement. The yellow light means your time is 
running down and, of course, you have 1 minute remaining to 
complete your statement. The red light means that your time is 
expired.
    Of course, we will make sure that the light gets to working 
properly, and I am sure the technicians will be here in a 
minute.
    Thank you very much, and we will begin with you, Mr. Beard.

STATEMENTS OF DANIEL BEARD, CHIEF ADMINISTRATIVE OFFICER, U.S. 
HOUSE OF REPRESENTATIVES; AND NANCY KICHAK, ASSOCIATE DIRECTOR 
FOR STRATEGIC HUMAN RESOURCES POLICY, U.S. OFFICE OF PERSONNEL 
                           MANAGEMENT

                   STATEMENT OF DANIEL BEARD

    Mr. Beard. Thank you, Mr. Chairman, Congresswoman Maloney, 
Congressman Marchant. I thank you for the opportunity to be 
here with you today to discuss the importance of providing paid 
parental leave for Federal employees including legislative 
branch employees.
    I want to compliment you for introducing H.R. 3799. This is 
an important bill, and it is my hope the bill can be enacted 
promptly.
    It is important to note that section three of the bill 
provides for 8 weeks of paid family medical leave for 
legislative branch employees. I appreciate your including these 
employees because too often they are left out of this type of 
legislation.
    As the officer who would be charged with implementing this 
legislation, I can assure we will not have any problems 
implementing it, the legislation as written, and I hope that it 
will be enacted as soon as practical.
    Mr. Chairman, this legislation will fill a significant gap 
in our employee benefits portfolio.
    The legislative branch, as well as the executive branch, is 
operating in a highly competitive job market. We must compete 
against other private sector, non-profit and government 
organizations to attract a talented and diverse work force. 
Since it is difficult to compete based solely on salary, it is 
even more vital that we have a strong employee benefit package 
to present prospective employees.
    In addition, having a strong pay and benefit package is 
absolutely essential to retaining the work force that we 
currently have. It is naive to think that we can attract and 
retain a first class work force without strong pay and benefit 
packages, and that is why H.R. 3799 is so vitally important.
    You know one of the great myths about the Federal work 
force is that they are benefit-rich. I think the myth is that 
the Federal work force is under-worked, overpaid and wallowing 
in cushy benefits, and I just think this is absolute false 
based on my 35 year experience. Federal employees may have had 
great benefits and a great benefit package in the 1950's, but 
that certainly isn't the case today.
    Last fall, I hired the consulting firm of Watson Wyatt to 
compare the benefits received by employees of the House of 
Representatives against employees of 14 other private firms, 
hospitals, universities and State governments.
    I have included two charts with my testimony that identify 
the firms and organizations that we were compared against. As 
you can see from the second table, our defined benefits 
retirement program and our retiree life insurance programs are 
ranked first among the 15 organizations examined.
    However, in every other area, our benefit package did not 
measure to our competitors. We have a long way to go before the 
benefit package of our work force is competitive for purposes 
of attracting and retaining employees.
    There is one other myth I want to raise with respect to 
paid family and medical leave benefits. As major criticisms, 
one of the major criticisms that is used to oppose this benefit 
is that it costs too much money. I just don't think this is the 
right way to look at it.
    Salary budgets for Federal employees remain the same 
whether the employee takes leave or not. The salary for that 
employee has already been included in a budget and whether the 
employee is on paid leave or not doesn't really affect the 
budget of the employing authority.
    It is also incorrect to assume that if an employee takes 
family or medical leave or parental leave, the employee must 
automatically be replaced by a paid replacement worker.
    The question of whether you need to replace an employee for 
up to 12 weeks is a management decision based on the particular 
characteristics of the organization. In fact, in most cases, 
careful management of human resources, which includes the 
effective absorption of the on-leave employee's workload by 
other staff, can minimize or eliminate the cost of providing 
FMLA benefits.
    I would even argue that such a benefit saves money in the 
long term because employee morale is always greater when an 
employer treats their employees with dignity and especially in 
times of crisis.
    Mr. Chairman, I want to thank you again for the opportunity 
to be here with you today, and I would be happy to answer any 
questions you have.
    [The prepared statement of Mr. Beard follows:]

    [GRAPHIC] [TIFF OMITTED] T6711.001
    
    [GRAPHIC] [TIFF OMITTED] T6711.002
    
    [GRAPHIC] [TIFF OMITTED] T6711.003
    
    [GRAPHIC] [TIFF OMITTED] T6711.004
    
    [GRAPHIC] [TIFF OMITTED] T6711.005
    
    Mr. Davis of Illinois. Thank you, Mr. Beard.
    Ms. Kichak.

                   STATEMENT OF NANCY KICHAK

    Ms. Kichak. Thank you. Mr. Chairman and members of the 
subcommittees, thank you for inviting me here today to discuss 
parental leave. We share your interest in this topic and 
ensuring that the Federal Government has programs to assist 
employees in balancing their work and personal needs.
    Today's hearing is focused specifically on H.R. 3799, the 
Federal Employees Paid Parental Leave Act of 2007. H.R. 3799 
would provide 8 weeks of paid leave in addition to the 
employees' accrued annual or sick leave that could be 
substituted for any portion of the 12 weeks of Family Medical 
Leave Act leave. Employees would not be required to use their 
accumulated annual leave and sick leave before using the 8 
weeks of paid leave.
    Results from the Federal Human Capital Survey show Federal 
employees are very satisfied with benefits, including paid 
leave for personal and family illness. Very few employers 
provide for unlimited accumulation of sick leave by the 
employees, but that is what we do in the Federal Government.
    Full-time employees covered by our leave system earn 13 
days of paid sick leave each year. Any amount they do not use 
by the end of each year accumulates and remains available for 
their use in future years.
    Federal employees may use up to 12 weeks of accrued sick 
leave in a year to care for a family member with a serious 
health condition. Pregnancy and childbirth are included in the 
definition of serious health condition for this purpose. An 
employee can use this leave to accompany the expectant mother 
to prenatal appointments, to be with her during her period of 
hospitalization and to care for her during her recovery from 
childbirth.
    The FMLA provides 12 weeks of unpaid leave within 12 months 
of the birth or adoption of a child. Federal employees may 
substitute any accumulated annual leave for unpaid leave. Sick 
leave may also be substituted for periods such as the mother's 
recovery from childbirth and for routine medical or well baby 
appointments.
    The Federal Government also has advanced leave, leave banks 
and leave-sharing programs to assist our employees needing more 
help.
    Even with all these benefits and flexibilities, we 
recognize there is one missing piece we need in order to have a 
truly complete package of quality benefits. That missing piece 
is income support for employees who experience short-term 
disabilities, including as a result of childbirth, early in 
their careers or when they have been unable to accumulate 
sufficient sick or annual leave to meet their needs.
    We appreciate that H.R. 3799 recognizes this gap and 
proposes a solution with respect to parental leave. We believe, 
however, any solution should recognize there are other 
circumstances involving short-term disabilities in which an 
employee may need benefits beyond those already available.
    Accordingly, we are proposing to establish a new short-term 
disability insurance program for Federal employees. It would 
offer employees an opportunity to purchase STDI coverage on a 
voluntary basis. It would be available at affordable premiums 
based on group rates that leverage the size of the Federal 
population.
    The new STDI program would safeguard Federal employees 
during their temporary inability to perform their jobs because 
of a non-work-related disability including accidents, illnesses 
or maternity.
    The more comprehensive nature of the program would make it 
more attractive to employees than the coverage under H.R. 3799. 
In addition, the short-term disability insurance would not 
adversely affect agencies' ability to budget for staffing 
requirements.
    We look forward to working with you to explore in more 
detail the best approach to meeting the needs of all our 
employees for income support during periods of absence due to 
parental responsibilities and temporary disability.
    Thank you for the opportunity to discuss this issue, and I 
will be happy to answer any questions.
    [The prepared statement of Ms. Kichak follows:]

    [GRAPHIC] [TIFF OMITTED] T6711.006
    
    [GRAPHIC] [TIFF OMITTED] T6711.007
    
    [GRAPHIC] [TIFF OMITTED] T6711.008
    
    Mr. Davis of Illinois. Thank you very much, Ms. Kichak.
    We will now proceed with questions of the witnesses.
    Mr. Beard, again, let me thank you for your testimony. You 
stated that paid family leave would not affect the employing 
authorities' bottom line. Could you further expound on this 
since OPM states that this type of plan would be too expensive?
    Mr. Beard. Well, I can only relate our experiences with the 
Chief Administrative Officer's Office. We, since 2002, have 
averaged approximately 90 requests for FMLA each year. Thirty-
six percent of those were parental or spousal health 
conditions, and 44 percent were with requests due to medical 
leave associated with the individual, and only approximately 20 
percent were for parental leave.
    So we know. We know the statistics on how many people are 
going to be out, what the requests are. It is not an unknown to 
us each year.
    So, as we develop our budgets, we develop our budgets with 
an eye to how many people do we anticipate will be out, 
approximately how many of those would we have to backfill for 
with temporary employees and how many can we handle through job 
sharing or having other employees pick up their jobs, the 
functions or activities that an individual may carry out.
    So I just don't think it is an unknown fact. It is not like 
you suddenly run around or you are going along in a car, and 
you go off a cliff.
    We know exactly what--we know what is going to happen each 
year. We can anticipate it. It is a management issue more than 
anything else.
    Frankly, I think, and I think the real positive here is 
that too often we forget Family and Medical Leave Act requests 
are requests at a time of crisis for employee. These are not 
made routinely, and you can't get approval for them as if they 
were routine sickness. This is a moment in an employee's life 
when something major is occurring, and we as an employer really 
have to make a decision that we want to try to help our 
employees in this time of crisis or, in the case of parental 
leave, happiness, I guess.
    But, you know, it behooves the management of any 
organization to look at FMLA in a positive way. This is an 
activity that you want to undertake at a time of crisis, and 
you want to help your employees, because you want to retain 
those employees, because if we lose employees, if we have a 
high turnover rate, it hurts the institution as a whole.
    Mr. Davis of Illinois. Do you see any downside?
    I mean, you have testified, obviously, in favor of the 
legislation. Do you see any downside to it at all?
    Mr. Beard. Well, I think the biggest downside in the House 
of Representatives is we have operated here historically under 
a concept that each member is a separate employing authority 
and can decide what it is they want to do. This legislation 
would interject into that concept or philosophy by saying that 
there is a fundamental prerequisite here that at least you at 
least get 8 weeks of paid FMLA.
    Right now, it is all over the board. I do know of one 
office that provides 18 weeks of paid FMLA for parental 
purposes, and then I know of offices that don't provide any 
paid leave. So it is all over the board with the 440 member 
offices as well as approximately another 50, no, more than 
that, about 100 offices that would be employing authorities 
that would have made a decision about that.
    So I think, to me, that is the biggest problem. I don't 
think that it is a monetary one.
    Mr. Davis of Illinois. Thank you.
    Ms. Kichak, did OPM work employee groups in developing the 
short-term disability insurance program?
    Ms. Kichak. Right now, the proposal that we have submitted 
allows us to contract for a coverage. We haven't. We haven't 
fully designed it yet. So, there is always opportunity for 
discussion.
    We are very mindful of letters that we receive from people, 
telling us that they have a need for short-term disability 
early in their career. So the proposal was designed, based in 
recognition of input we have received from employees.
    Mr. Davis of Illinois. Currently, Federal employees can 
donate only annual leave to agency leave bank programs and not 
sick leave.
    Ms. Kichak. Right.
    Mr. Davis of Illinois. Would you support a change in the 
law to allow a Federal employee to donate unused sick leave in 
the same way that they can donate unused annual leave?
    Ms. Kichak. As a new proposal, we would have to look at 
that and consider its consequences. That hasn't been proposed 
before, so I don't have a position on that.
    Mr. Davis of Illinois. You state in your testimony that 
full-time employees covered by our leave system earn 13 days of 
paid sick leave each year. Any amount that they do not use by 
the end of each year accumulates and remains available for 
their use in future years without limitations, and I think that 
is great.
    What options, though, do new employees have, who have not 
accrued any sick leave?
    Ms. Kichak. Well, first of all, we have recognized that for 
new employees who haven't accrued sick leave, we have a gap in 
coverage, which is why we are proposing the short-term 
disability.
    But currently, folks who have not accumulated leave have 
the option of the leave banks. They also have the option of 
advanced leave. We can grant up to 30 days of advanced sick 
leave in a year. We can also grant advanced annual leave for 
those folks, and then of course they have the right to request 
Family and Medical Leave Act leave for serious health 
conditions, and that is 12 weeks.
    So there are options today. We are just not saying there 
are as many options as we would like to have. We would like to 
have an additional option.
    Mr. Davis of Illinois. Thank you very much.
    I am going to now yield to Mr. Marchant.
    Mr. Marchant. Thank you, Mr. Chairman.
    Mr. Beard, just a couple of questions about your 
interpretation of how this bill is written. In the case of two 
parents in an adoption, would one parent choose to be the 
person taking the leave or would both parents take the leave?
    Mr. Beard. I have no idea. I mean, I honestly don't know 
the answer to that question. I would have to work with the 
staff to figure out what the right answer is.
    But, certainly, in an adoption or the birth of a child, 
both parents are--they are both parents, and they both bond and 
build a relationship with that child over time.
    So I don't think it is necessarily so that you would have 
to--that the choice--that a couple would have to make a gut-
wrenching choice that only one parent would be able to stay 
home. That wouldn't seem to me to be fair.
    Mr. Marchant. So it would be your recommendation then that 
the bill would be written to where both parents would?
    Mr. Beard. It certainly would be my recommendation, but I 
am just a simple administrator, Mr. Marchant.
    Mr. Marchant. In your administrative opinion, when you made 
the statement that this has all been factored in and there 
would be significant impact, were you thinking that both 
parents would be taking off?
    Mr. Beard. Yes. We had a couple who had--two people who 
worked for me had a premature set of twins, which, 
unfortunately, died. Both of the couple was out for a time 
period. One of them came back earlier than the other.
    But, I think, in that traumatic experience, it was a 
terrible experience to have happen to your employee, and I 
think the employees of our organization--I was proud of the 
fact that they were more than willing to jump in and to try to 
help out in that particular instance.
    I don't think it would have been fair to say to those 
employees, ``well, one of you has to, you know, not get paid 
for this period of time.''
    Mr. Marchant. Yes. The question was not about the quality 
of the answer but just how you quantify it as far as the effect 
on the budget.
    I think the other thing that I would personally be 
concerned about, as far as our legislative staffs, and not so 
much our district staffs but our staffs here is the concern 
that I might have if my legislative director in the middle of a 
session had to avail himself of this. Actually, I think your 
observation that this would significantly impact some of the 
way we ran our offices would be something that I hadn't thought 
of.
    Mr. Beard. Yes.
    Mrs. Maloney. Will the gentleman yield for a point of 
information?
    Mr. Marchant. Yes.
    Mrs. Maloney. The bill does not cover congressional 
offices.
    Mr. Marchant. OK. I misunderstood.
    Mrs. Maloney. Often, we are in a different category. So it 
doesn't cover congressional offices, but it covers those who 
work for the legislature, the sergeant-at-arms, the legislative 
offices that work in the various agencies that interact with 
the legislature.
    Mr. Marchant. OK. I thank you. I appreciate that. I 
misunderstood what he said then.
    Mr. Beard. I think the real difficulty here and I think one 
of the great challenges with respect to the legislative branch 
is what kind of--you know we have to make a decision--what kind 
of employer do we want to be? Do we want to be a strong 
employer or do we want to be a springboard employer?
    We have a history here, at least in the legislative branch. 
Our employees come in for a few years, and then they, you know, 
they go out, they go downtown, and they make a lot more money. 
Every day, they pick up the paper, and they are flooded with 
ads of--well, here is a good ad.
    In one sense, we are in a competitive environment. All the 
staff here are. They are hounded daily with, you know, ``gee, 
there are some goods jobs here that make a lot more money than 
I do, a lot better benefit package.''
    Just like the Federal Government is now holding, going to 
job fairs, trying to attract employees, we have to attract and 
retain good employees in the legislative branch, because it is 
extremely expensive to train new workers. If somebody leaves, 
the general rule of thumb is a year to year and a half of 
salary is going to be the cost that will be incurred for 
recruitment, training and getting that employee back up to 
speed. So it is an extensive process, and it is one that we 
have grown to accept.
    Mr. Marchant. As far as the proposed short-term disability 
plan, can you give me an idea of what you say would be 
inexpensive? Can you quantify that; $30, $40 a month?
    Ms. Kichak. Well, the legislation we have proposed does not 
have the actual benefit design in it to allow us to negotiate 
the best deal when we procure this, but we have estimated for a 
program that covers 12 weeks at 60 percent, that the premium be 
$1,000 a year, which would be less than $40 a pay period for 
Federal employees.
    Mr. Marchant. OK.
    Thank you, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Mr. Marchant.
    Mrs. Maloney.
    Mrs. Maloney. First of all, I would like to thank both of 
the panelists and thank you for your support of the 
legislation, and I am really thrilled with that.
    I would like to ask both of you. The Federal Government has 
never been able to compete with private industry with regard to 
wages. So one of the selling points for Federal employment is 
focused on the benefits we offer.
    One point you both agree on is that the Federal Government 
is missing an important piece in its benefits package, and that 
is some kind of income support for parental leave, but you seem 
to have different views of how best to provide such benefits.
    I would like to ask each of you, how do you each see the 
lack of paid Family and Medical Leave type leave affecting our 
competitiveness with other sectors, meaning the Federal 
Government's competitiveness?
    Ms. Kichak. OK, I will go first.
    We definitely have heard as we go out recruiting and 
through letters to our office that having some income support 
for folks during the maternity period is an important 
recruitment tool, and that is why we have included the short-
term disability, but we definitely hear it is needed for 
recruitment.
    Mrs. Maloney. Can you each discuss how H.R. 3799 would 
affect the Federal Government's ability to recruit and retain 
workers?
    Mr. Beard. Well, I will jump in this time. I think one of 
the things that you need to look is your work force, and in our 
particular case, the 10,000 employees of the House of 
Representatives, 40 percent of those employees are under age 30 
and another 14 percent are between 31 and 35.
    Mrs. Maloney. Really?
    Mr. Beard. So over half of our work force is under 35 years 
of age, and that is a time in your life when having children is 
a major part of your life. As a result, this kind of benefit 
would be very attractive and very helpful for us to keep and 
retain our employees.
    That is the other reason that I had Watson Wyatt look at 
the benefit package that we offer and try to compare it against 
the private and non-profit sectors. It is not a perfect study, 
and the benefits vary widely within the House of 
Representatives. But the important point is we at least have 
some indication of where we are weak. This is one area where we 
are weak, and this bill would correct that weakness.
    Mrs. Maloney. Ms. Kichak, if I could ask you as a followup, 
as employees retire, the loss of experienced workers could have 
adverse effects on productivity and economic growth. What 
specific activities has OPM suggested that agencies implement 
to address the need to recruit and retain our valuable workers?
    Ms. Kichak. We are working very hard with our agency, with 
the agencies throughout the Federal Government to help them 
develop programs for retention. We have a lot of flexibilities. 
We have retention incentives that could be used for pay.
    We also have succession planning activities that get us to 
work with folks so that if we aren't able to retain them and 
they leave, we have plans in place to transfer that expertise.
    We also have, to recruit folks, a very good benefit 
package, even with this gap that we admit is there. The Watson 
Wyatt study shows that our pension plans are very good. As I 
said before, the Federal Human Capital Survey of our 
employees--we had 86 percent satisfaction with our leave 
programs for illnesses.
    So we are working on some pay programs to keep people, some 
succession planning, and then we are also looking at the 
recruiting area and what we need there.
    Mrs. Maloney. I was struck, Dr. Beard, by the testimony 
that you provided that paid leave would not have an impact on 
salary budgets, that careful management could minimize the need 
for temporary help, therefore actually saving taxpayers' 
dollars.
    So, it seems to me that paid parental leave is a good 
investment in our valuable work force and could save taxpayers' 
dollars in the long run. Would you agree, Mr. Beard?
    Mr. Beard. Absolutely. You know, we have to be a good 
employer. We have all heard stories of valuable employees who 
leave this institution because they can make more money and 
they get a better deal some place else. And, the information 
and knowledge that they have here is critical, and somebody is 
willing to pay a lot of money for it and provide a lot of 
benefits.
    But the institution loses, no matter who leaves, and I 
think it behooves us to provide the best benefit package we 
possibly can so that employees can make this a profession and 
that we keep and retain good employees.
    And, if our management is good, if we are careful and 
thorough and we anticipate problems that are coming, we can 
work our ways through that, and I think in the long run, it has 
a tremendous benefit to the institution.
    Mrs. Maloney. Thank you so much.
    Could I ask one last question to Ms. Kichak? OPM, is your 
short-term disability, your paid leave policy--are you 
developing a paid leave policy or planning to implement one 
before the end of this administration?
    Ms. Kichak. Our short-term disability is our proposal to 
deal with this gap, and so we are not. This is the only 
proposal we are working in that area.
    Mrs. Maloney. OK.
    Ms. Kichak. We are working on lots of other things, though, 
to retain employees. We also have a reemployed annuitant bill 
to try to, in the event that we are not able to retain folks, 
to allow our annuitants to come back on a part-time basis and 
help us.
    So those are the two big things for us. We are concerned 
about the short-term disability and, of course, our reemployed 
annuitants.
    Mrs. Maloney. Thank you both very much.
    Ms. Kichak. Thank you.
    Mrs. Maloney. Thank you, Mr. Chairman.
    Mr. Davis of Illinois. Thank you, Mrs. Maloney.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman, and I want to salute 
Congresswoman Maloney for this important legislation.
    I was looking at the chart that you had at the end of your 
testimony, Dr. Beard. I guess it doesn't appear there. There 
isn't a category on paid parental leave because it doesn't 
currently exist, is that right?
    Mr. Beard. No. It wasn't included in this.
    Mr. Sarbanes. OK. Do you have a sense of how dominant that 
offering is in the private sector?
    Mr. Beard. I don't. I could answer for the record.
    But I would say that in our case I mentioned earlier that 
approximately 80 percent of the use of FMLA in the Chief 
Administrative Officer's Office is for medical reasons 
associated with the individual or their parent or spouse, and 
only 20 percent is for pregnancy or child-related kinds of 
benefits. So paid FMLA is important not only for new parents, 
but it is also important for other employees for health 
reasons, either their health or the health of their spouse or a 
parent.
    Mr. Sarbanes. I have a sense that the different kinds of 
benefits are more or less eye-catching than others when people 
are considering where they should go work, and I think paid 
parental leave is one of these things that kind of will jump 
out at people.
    In some ways, with the effect that you might see it offered 
in some private sector arena, it will catch your eye. It will 
be a motivator for you to go there. You may look past, 
unwittingly, the fact that the rest of the benefits offered by 
that same employer actually are not all that great compared to, 
for example, what the Federal Government could offer, but you 
are already, kind of, on your way with the psychology that this 
is a workplace that is more responsive to your needs.
    I would be curious to have you comment on that because I 
could see where--I mean there are two benefits to this. 
Obviously, there is the substantive benefit to the individual 
of having this available to them and what that means for their 
family and their quality of life. That is critically important 
and it is a driver for this kind of legislation.
    But the other is getting back to this conversation we have 
been having about competition. This is one of those, to be 
crass, one of the kinds of benefits that is a real bell and 
whistle when people are making those comparisons.
    We can have wonderful benefits available that stack up very 
well against all the other lists of benefits that might be 
offered in another job and if this one is not there, that could 
be the reason that somebody decides to take the other job, and 
so we have a competitive disadvantage.
    Maybe you can talk about that just a little bit.
    Mr. Beard. Well, I could certainly jump in. I mean, as I 
mentioned earlier, 40 percent of our work force is 30 years of 
age or younger. The first thing that employee is going to look 
at is how much am I going to be paid. If we are reasonably 
competitive, then they are going to look beyond that.
    Probably the next thing they are going to look at is what 
kind of a contribution are we going to give to repayment of a 
student loan if they have a student loan, and right now we are 
capped at $6,000. We have requested money to increase that to 
$10,000 for next year, so we are on par with the executive 
branch.
    But the third item they are probably going to look at, 
especially if they are married, is going to be what kind of 
parental leave policy do we have and probably what kind of a 
day care or day care arrangement do we have. But it is going to 
be in the first tier of benefits that they are going to look at 
if they are making that job decision.
    And, I think it is instructive. Newsweek carried a story 
this week on the competition that the Federal, that the 
executive branch is, you know, interviews with some of the 
employees that they are meeting with at these job fairs, and 
salary is No. 1 on their mind, but they are also looking at 
benefit packages as well.
    Ms. Kichak. Yes. Our research shows that 76 percent of 
companies, and I think it is the same Watson Wyatt that you 
use, provide for the care during the childbirth time through 
the short-term disability packages. So that is the vehicle they 
use.
    We also do some research into which of our benefit programs 
are attractive in hiring and in the Federal Government--and by 
the way, we have an older work force than he quoted. We don't 
have 30 percent under 30. I don't have the exact number, but 
the executive branch is a little older.
    We find that the thrift plan that we have is the most 
important thing to employees for recruitment and retention, but 
we still believe we need, have a gap in this area. That is not 
to say just because we have the thrift plan, we have everything 
we need. We just know it is No. 1 in people's view.
    Mr. Sarbanes. Thank you.
    Mr. Davis of Illinois. Thank you very much.
    I don't have any further questions, and I want to thank the 
witnesses, unless someone else did. I want to thank this panel 
of witnesses. We appreciate your being here.
    Mr. Beard. Thank you.
    Ms. Kichak. Thank you.
    Mr. Davis of Illinois. We will proceed to our second panel 
and, while they are being set up, I will just go ahead and 
introduce them.
    Jane Waldfogel is a professor of social work and public 
affairs at Columbia University School of Social Work. She is 
also a research associate at the Center for Analysis of Social 
Exclusion at the London School of Economics. Dr. Waldfogel has 
written extensively on the impact of public policies on child 
and family well being.
    We thank you for being here.
    Sharyn Tejani is the senior policy counsel at the National 
Partnership for Women and Families in its Work and Family 
Program. At the National Partnership, she works on all aspects 
of the Work and Family Program including paid leave, paid sick 
days and protecting and expanding the FMLA.
    Thank you for coming.
    And, Vicky Lovell is the director of employment and work-
life programs at the Institute for Women's Policy Research in 
Washington, DC. Dr. Lovell's work focuses on issues related to 
women's employment and economic security including job quality, 
paid and unpaid time off policies, pay equity, work supports 
and unemployment insurance. She has provided extensive 
technical assistance to national, State and local policymakers 
on paid sick days and paid Family and Medical Leave programs.
    We thank you for coming.
    It is the policy of this committee to swear in all 
witnesses, so if you would stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that each of 
the witnesses answered in the affirmative.
    We are delighted that you are here. Of course, all of your 
statements are included in the record.
    We would ask that you summarize in 5 minutes, and we have 
this light to assist in knowing how the time is going. The 
green light means that you have the full 5, the yellow light 
means that you are down to 1 minute and, of course, the red 
light is asking that you would conclude.
    Dr. Waldfogel, we will begin with you.

STATEMENTS OF DR. JANE WALDFOGEL, PROFESSOR OF SOCIAL WORK, THE 
 COLUMBIA UNIVERSITY; SHARYN TEJANI, SENIOR COUNSEL, NATIONAL 
   PARTNERSHIP FOR WOMEN AND FAMILIES; AND DR. VICKY LOVELL, 
 DIRECTOR OF EMPLOYMENT AND WORK-LIFE PROGRAMS, THE INSTITUTE 
                  FOR WOMEN'S POLICY RESEARCH

                  STATEMENT OF JANE WALDFOGEL

    Ms. Waldfogel. Thank you, Chairman Davis, Vice Chair 
Maloney, Ranking Member Marchant, Congressman Sarbanes. Thank 
you very much for having me to testify today.
    We have heard from the first panel about benefits of 
extending parental leave, paid parental leave in terms of the 
productivity and retention. However, the main purpose of paid 
leave is to allow families time together when they need it. So 
I would like to use my time today to talk about the effects of 
paid parental leave on child and family well being.
    My testimony today will focus on three points: first, that 
research shows that parental leave is beneficial for children 
and parents; second, the FMLA has increased leave coverage, but 
its effects on usage have been limited due to the leave not 
being paid; and third, providing paid leave as other countries 
do would improve child and family health and well being.
    So, point one, research shows that parental leave is 
beneficial for children and parents. Research has shown that 
women who return to work later in the first year have better 
mental health, less depression.
    We also know that when paid leave periods are longer, 
infant mortality rates are lower. That is not the case with 
unpaid leave. It doesn't have the same protective effect 
because parents are less likely to take it.
    We also know that children whose mothers stay home longer 
in the first year of life receive more preventive healthcare 
and are more likely to be up to date on their immunizations. 
They are also more likely to be breast-fed and they are breast-
fed for longer.
    We also know that when fathers take longer parental leaves, 
they are more involved in the care of their infants, nine to 10 
months later when we interviewed them again.
    Second, the FMLA has increased leave coverage, but its 
effects on parental leave-taking have been limited due to the 
fact that the leave is not paid. The FMLA was a landmark piece 
of legislation, and it had a dramatic impact on raising 
parental leave coverage in the United States, especially for 
men who were less likely to be covered before the law.
    But the impact law on parental leave usage has been less 
pronounced and especially concerning is the fact that we find 
that leave laws have a larger effect on leave-taking among high 
income families than among low income families, suggesting that 
families are income-constrained. Surveys confirm this. They 
confirm that some parents don't take leave to which they are 
entitled under the FMLA because they can't afford it.
    Among parents reported that they needed a leave but didn't 
take it, the most frequent reason was the inability to afford 
it. Others take leave but undergo financial hardship, falling 
into debt or turning to welfare for support.
    Among those who take unpaid leave, more than half report it 
was difficult to make ends meet. About half say they would have 
taken longer leave if additional pay had been available.
    Point three, providing paid leave as other countries would 
improve child and family health and well being. The evidence 
indicates that a substantial share of parents in the United 
States are not able to take the leave to which they are 
entitled under FMLA because they don't have the right to paid 
leave.
    If we consider how parental leave in the United States 
compares to the situation in other countries, the results are 
clear. American mothers go back to work much more quickly than 
mothers in other peer nations in large part due to the lack of 
paid parental leave. The OECD countries, our peer countries, 
now provide an average of 18 months of childbirth-related 
leave, and much of that is paid.
    Our neighbor to the north, Canada, extended its leave 
coverage in 2002 and now offers a year of childbirth-related 
leave with 50 weeks of that leave paid from a social insurance 
fund.
    The U.K. also recently extended its leave provisions. It 
now provides a year of job-protected maternity leave to all new 
mothers with the first 9 months paid from social insurance 
funds and a commitment to go to 12 months of paid leave in the 
next parliament.
    So, in conclusion, let me thank you again for inviting me 
to testify today on this important piece of legislation. By 
providing new parents with 8 weeks of fully paid leave, H.R. 
3799 would be an important step in improving the health and 
well being of both children and parents.
    Thank you again, and I would be happy to answer any 
questions.
    [The prepared statement of Ms. Waldfogel follows:]

    [GRAPHIC] [TIFF OMITTED] T6711.009
    
    [GRAPHIC] [TIFF OMITTED] T6711.010
    
    [GRAPHIC] [TIFF OMITTED] T6711.011
    
    [GRAPHIC] [TIFF OMITTED] T6711.012
    
    [GRAPHIC] [TIFF OMITTED] T6711.013
    
    Mr. Davis of Illinois. Thank you very much, and we will go 
to Ms. Tejani.

                   STATEMENT OF SHARYN TEJANI

    Ms. Tejani. Thank you. Good morning, Mr. Chairman and Madam 
Vice Chair.
    I am here on behalf of our president, Debra Ness, who 
regrets that she wasn't able to make it today.
    The National Partnership is a non-profit, non-partisan 
advocacy group that promotes fairness in the workplace, access 
to quality healthcare and policies that help workers meet their 
dual responsibilities of work and family.
    We lead a diverse coalition of 200 groups dedicated to 
protecting and expanding the Family and Medical Leave Act. When 
we are not protecting the Family and Medical Leave Act from 
regulatory changes that could scale back its protections, we 
are working to expand it by securing paid family and medical 
leave so that no worker has to choose between a paycheck and 
caring for a loved one or recovering from their own illness.
    We are very pleased to have the chance to testify in 
support of the Federal Employees Paid Parental Leave Act of 
2007 which would give Federal employees, eights weeks of paid 
leave after the birth or adoption of a child. Its enactment 
would be an important step toward making family and medical 
leave a reality for many more workers.
    Nearly the entire world recognizes the importance of being 
able to take time off after the birth of a child. A major 
international study last year found that the United States is 
one of four countries--the others being Liberia, Papua New 
Guinea and Swaziland--that do not provide any paid leave after 
childbirth.
    In fact, right now, the FMLA is the only Federal statute 
that guarantees workers here time off after the birth or 
adoption of a child. It provides 12 weeks of unpaid leave. 
Unfortunately, two in five workers are not covered by the FMLA, 
and many more cannot afford to take FMLA leave because it is 
unpaid.
    We simply can and must do much better for America's 
workers. The FMLA has been a huge help to millions of workers 
because of the unpaid leave that it provides, but it is time to 
take the next step and offer paid family and medical leave.
    The Federal Employees Paid Parental Leave Act of 2007 will 
help a lot more workers afford the leave that they need. The 
bill covers nearly all Federal workers and legislative 
employees and gives them 8 weeks of full paid family leave.
    Many people assume that Federal workers already have paid 
maternity leave and paid paternity leave in part because people 
assume that the Federal Government would be a model employer in 
all respects. Sadly, in this instance, it is not true. So this 
legislation would not only tremendously help Federal workers, 
but it would also create a model for the Nation and show the 
country that the government really does value families.
    The Federal Employees Parental Leave Act would make paid 
maternity and paternity leave a reality for a work force that 
is very diverse, racially, economically and geographically, and 
it provides 8 weeks of leave for both men and women, a parity 
which we consider equally important to any leave program.
    It also contains parity for birth parents and adoptive 
parents, which is another important point of parity and basic 
fairness.
    The bill will do for Federal workers what several States 
are currently doing for all the workers in those States. In 
2004, California became the first State to offer wage 
replacement while workers are on all types of family leave. Its 
law has given more 13 million California workers, partial 
income replacement while caring for a new child or a seriously 
ill family member.
    Last May, Washington became the second State to offer a 
program. In Washington's programs, parents, mothers and fathers 
get 5 weeks of leave after the birth or adoption of a new 
child.
    There are active campaigns to make paid family and medical 
leave available to workers in New Jersey, New York, Illinois, 
and Oregon. Just this week, New Jersey Senate passed a bill 
that is very similar to California's bill and hopefully that 
will go to the Assembly next week and will become the law there 
as well.
    I want to stress that the Federal Employees Paid Parental 
Leave Act is really only a start. The maternity and paternity 
leave it will provide is critical for new parents, but it will 
not come close to meeting all the caregiving needs that Federal 
workers have because they also need paid leave to recover from 
their own illnesses, to care for spouses and older children and 
parents. Nevertheless, the bill would be a significant step 
forward.
    Too often, we give only lip service to the family values we 
claim to hold dear. Passing this act is a chance to show that 
lawmakers really do believe that caring for a new child is 
important and we will support that.
    The National Partnership for Women and Families will do all 
we can do to see that this becomes a law soon.
    Thank you very much.
    [The prepared statement of Ms. Tejani follows:]

    [GRAPHIC] [TIFF OMITTED] T6711.014
    
    [GRAPHIC] [TIFF OMITTED] T6711.015
    
    [GRAPHIC] [TIFF OMITTED] T6711.016
    
    [GRAPHIC] [TIFF OMITTED] T6711.017
    
    [GRAPHIC] [TIFF OMITTED] T6711.018
    
    [GRAPHIC] [TIFF OMITTED] T6711.019
    
    Mr. Davis of Illinois. Thank you very much, and we will 
move to Dr. Lovell.

                   STATEMENT OF VICKY LOVELL

    Ms. Lovell. Thank you, Vice Chair Maloney, Chairman Davis. 
Thank you for providing me with an opportunity to testify on 
the importance of paid leave for the Federal work force.
    My written testimony discusses how State temporary 
disability insurance programs offer a model for paid parental 
and family care leave.
    As we have heard already heard about SDI this morning from 
Ms. Kichak, I will focus my remarks instead on two questions: 
First, is paid parental and family care leave important for the 
Federal work force and, second, what are the likely benefits to 
the Federal Government of creating new paid time off programs?
    In regard to the first point, the experience of paid family 
leave in California is instructive. A comprehensive paid family 
leave insurance program was enacted in California in 2002 with 
benefits starting in 2004. Workers there have been receiving 
benefits under the new program for 3\1/2\ years to care for a 
seriously ill child, spouse, parent or domestic partner or to 
bond with a minor child.
    The program is administered by California's Employment 
Development Department in conjunction with the preexisting 
short-term disability insurance program.
    We heard from Dr. Waldfogel about the impact of mothers' 
parental leave on infants' well being. The majority of claims 
under California's paid family leave program are for bonding 
with a new child: 69 percent are mothers' claims and 18 percent 
have been from fathers.
    In California, a birth mother may take both pregnancy 
maternity disability under short-term disability and 6 weeks of 
bonding leave.
    But infants are not the only beneficiaries of paid family 
leave in California. Another 8 percent of leaves in that State 
are taken by women for family care with the final 4 percent 
taken by men.
    Only a very small fraction of California's workers take 
family care leave in a given year, only 0.17 percent or about 2 
of every 1,000 workers.
    But for those who need the leave the time with their family 
can be absolutely critical. One-fourth of those California 
workers cared for family members who had cancer. Another one-
eighth cared for family members with heart disease. About one-
third of the leaves were to care for workers' parents and 
another third were for their spouses.
    Paid leave allowed these workers to provide urgently needed 
care without also facing a financial crisis from lost earnings 
in situations that could affect any family at any time.
    We have some evidence of the benefits of paid maternity 
leave for employers, and it is reasonable to expect that family 
care leave would have some similar effects of lowering costs of 
turnover, increasing productivity and positioning the Federal 
Government to be more competitive in hiring top talent.
    Women who have paid maternity leave work later into their 
pregnancies than those with only unpaid leave, and they are 
more likely to return to employment following the birth of 
their child.
    Other benefits, such as paid sick leave and health 
insurance, also reduce voluntary turnover because workers whose 
health and family care needs are met by their current employer 
are less likely to think about changing jobs. Thus, a paid 
family care leave program will allow the Federal Government to 
retain valuable staff with job-specific skills.
    Retaining workers is a big cost saver for employers. If we 
look in detail at what is involved in replacing a worker, we 
can see how the costs can add up: exit interviews, advertising 
and employment agency fees, background checks, drug tests, 
interviews and training.
    Then there are more subtle impacts such as lost 
productivity involved with having a vacant position, low 
productivity of a worker who plans to leave soon and low 
productivity and mistakes while a new learner gets up to speed.
    One commonly cited rubric is that employers pay 25 percent 
of total annual compensation to fill a position. This is a very 
significant expense for employer who cannot hold on to their 
workers.
    Workers who have benefits they value may also be more 
productive. A study of family friendly policies and working 
mother best companies found that those providing paid leave to 
care for sick family members are more profitable than companies 
that don't.
    It may be that these firms inspire greater work effort by 
providing higher overall compensation than might be available 
elsewhere in the labor market or, in the case of family 
friendly policies in particular, workers may simply be less 
anxious and distracted about their family care situation and 
better able to focus on their work. Employees may feel more 
loyal when their parenting needs are accommodated and put more 
effort into their work. In all these scenarios, the employer 
enjoys greater productivity.
    The Federal Government does not compete with the average 
American employer for the average American worker. Because the 
Federal work force is highly skilled and highly educated, the 
Federal Government competes for the best workers.
    To build the most productive work force, Federal employment 
should be compensated so as to attract and retain top talent 
that could choose lucrative work in the private sector. Paid 
time off could provide an important competitive advantage in 
this effort.
    [The prepared statement of Ms. Lovell follows:]

    [GRAPHIC] [TIFF OMITTED] T6711.020
    
    [GRAPHIC] [TIFF OMITTED] T6711.021
    
    [GRAPHIC] [TIFF OMITTED] T6711.022
    
    [GRAPHIC] [TIFF OMITTED] T6711.023
    
    [GRAPHIC] [TIFF OMITTED] T6711.024
    
    [GRAPHIC] [TIFF OMITTED] T6711.025
    
    [GRAPHIC] [TIFF OMITTED] T6711.026
    
    [GRAPHIC] [TIFF OMITTED] T6711.027
    
    [GRAPHIC] [TIFF OMITTED] T6711.028
    
    [GRAPHIC] [TIFF OMITTED] T6711.029
    
    [GRAPHIC] [TIFF OMITTED] T6711.030
    
    [GRAPHIC] [TIFF OMITTED] T6711.031
    
    Mr. Davis of Illinois. Well, thank you very much, and I 
thank all three of you for your testimony.
    Two votes are coming up. One is already on, and the other 
one is a 5-minute vote. So we would have to recess for about no 
more than 15 minutes, and we will be back.
    Thank you so much.
    [Recess.]
    Mr. Davis of Illinois. OK, well, I do have a question for 
her.
    Thank you very much for remaining, Dr. Waldfogel. I have a 
question. I was looking at the references at the end of your 
testimony, and it is obvious to me that you have done a 
tremendous amount of research and extensive writing on the 
question and the subject of what it is that concerns parents or 
what it is that concerns people who have children.
    How big an effect would paid family leave benefit have on 
the question of retention of Federal employees or even the 
recruitment of individuals?
    We talk about the fact that we are always in competition 
with the private sector to try and find those individuals who 
would come. How much impact would you think this actually has 
on one's decisionmaking relative to where they will go to work?
    Ms. Waldfogel. I agree with the speaker who spoke earlier 
about the salience of these kinds of benefits for young people 
looking for a job, especially the kind of employees who are 
coming to work here, here in the government.
    It is the value of the benefit to the family, the 
substantive value, but it is also the signaling value, that 
this is an employer who cares about families and who will be 
responsive to family needs, not just at the time of the birth 
of a child but later on throughout the employee's career.
    So I think these kinds of benefits are hugely important in 
terms of recruiting and retaining workers. They are very 
salient in terms of the decisions that workers make.
    Mr. Davis of Illinois. I guess, especially for those who 
actually have options in terms of whether you can either do 
this or do that, whether you can go here or you can go there. 
Generally, those individuals who would be considered as the 
best and the brightest are the ones who have the most options.
    Let me just thank you, and I certainly appreciate the fact 
that you stayed, and we recognize if you have to leave. Thank 
you so much.
    Ms. Waldfogel. Thank you.
    Mr. Davis of Illinois. Ms. Tejani, you testified that last 
year one-fifth of your staff was on family leave.
    Ms. Tejani. That is right.
    Mr. Davis of Illinois. A very interesting group. How much 
would you estimate this cost or what impact did it have? Did it 
place any kind of financial burden or impact on the 
organization?
    Ms. Tejani. Well, what the National Partnership was able to 
do was hire one temporary worker, so there was a cost for that. 
We used contractors a little more, so there was a cost for 
that. The rest of the work was parceled out among the staff who 
remained.
    Well, of course, there are financial costs to doing that 
kind of thing. What we got to do was keep all of our workers. 
The parents came back because of the leave that they had, and 
so whatever small costs we had in covering the work, we made 
money on it, because we didn't have to retrain or rehire or 
find new workers because all of our workers returned.
    And, there is an immense amount of loyalty that comes into 
this. When you give people a benefit like this, they are much 
more willing to stay with you and to work hard when the next 
worker needs family medical leave and other people need to pick 
up the slack.
    Mr. Davis of Illinois. And so, you practice what you 
preach.
    Ms. Tejani. Absolutely.
    Mr. Davis of Illinois. I think that is great also.
    I will just tell you that I am appreciative of your 
organization, because the first major amendment that I got 
passed when I came to Congress, your organization was one of 
the groups that assisted, and we were very pleased with that.
    Dr. Lovell, if the Federal Government only offers a short-
term disability program and not paid family leave, do you think 
enough prospective parents sign up for such a program and would 
this benefit be sufficient to cover the needs of those families 
if only the short-term disability program is in place?
    Ms. Lovell. I think the issue about whether enough workers 
would take up a voluntary disability program is very important, 
because we know from other benefits that are offered to Federal 
workers, that people who will need the benefit won't make the 
calculation that is in their best interest, and they won't take 
it when they need it. For instance, with dental and vision 
insurance, for the Federal Government, take-up is only 10 
percent.
    So with temporary disability insurance, if people don't 
know, if they can't predict they are going to need it, they 
have a choice between having a little higher take-home pay or 
providing or participating in the insurance program, they may 
choose unwisely not to have the insurance. And, then when they 
have a difficult pregnancy or a serious disability, they won't 
be covered.
    And, that is one reason why I think the programs in the 
States, such as California, that provide coverage to all 
workers have been so effective and also so cost-effective 
because they follow kind of a better insurance model of 
covering all workers. So they pool the risk of their entire 
work force, meaning the premiums can be lower for individual 
workers and when someone does need it, they have it.
    They didn't have to make a choice, ``do I want to pay for 
this or that?'' They are covered.
    Mr. Davis of Illinois. Could you describe the best short-
term disability program that you are aware of?
    Ms. Lovell. The ones in the five States that have mandatory 
short-term disability, which are California, Hawaii, New 
Jersey, New York, and Rhode Island, are fairly similar in their 
benefit levels.
    They replace about 55 to 67 percent of a worker's earnings. 
They give benefits usually for up to 26 weeks, although in 
California an employee can get disability benefits for 52 
weeks, and they tend to be similar in the kinds of conditions 
that they offer in terms of covering workers' own disabilities.
    Then in California, of course, they have now an insurance 
program for paid family leave, for family care leave.
    So it is, I would assume, that a Federal program would be 
kind of similar to that kind of policy that the State programs 
have.
    Mr. Davis of Illinois. Well, thank you all very much. It 
seems as though my colleagues may have been waylaid or had to 
attend to something else and haven't come back yet. So I won't 
ask you to stay any longer.
    Thank you very much, and we are delighted that you were 
able to stay and be with us. Thank you.
    Ms. Tejani. Thank you.
    Ms. Lovell. Thank you.
    Mr. Davis of Illinois. We will now proceed to our third 
panel and, while we are setting up for them, I will go ahead 
and introduce them.
    Ms. Colleen M. Kelly is the national president of the 
National Treasury Employees Union, the Nation's largest 
independent Federal sector union, representing employees in 31 
separate government agencies. As the union's top elected 
official, she leads NTEU's efforts to achieve the dignity and 
respect Federal employees deserve.
    Ms. Mary Jean Burke currently serves as the first executive 
vice president of the American Federation of Government 
Employees [AFGE], National VA Council. She has served as the 
council's National Safety Representative and has been a member 
of the council's legislative committee for many years. Ms. 
Burke is the Secretary Treasurer of AFGE Local 609 at the 
Indianapolis Veterans Administration Medical Center where she 
works as a physical therapist.
    Ms. Amy Costantino has worked for Health and Human Services 
since 1991 and is currently a team leader. Ms. Costantino is 
the mother of 9 month old twin boys who were born 3\1/2\ months 
premature. Despite careful planning and conscientiously 
accumulating paid time off to care for her sons after their 
birth, the premature delivery forced her to make a difficult 
decision about whether or not to take her leave to be with her 
children in the neonatal intensive care unit or to wait until 
they were released from the hospital.
    We thank all three of you for coming. As the tradition of 
this committee, we swear all witnesses in, so if you would rise 
and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that the 
witnesses answered in the affirmative.
    Ladies, I thank you very much for being here, and we will 
proceed with Ms. Kelley.

  STATEMENTS OF COLLEEN KELLEY, PRESIDENT, NATIONAL TREASURY 
    EMPLOYEES UNION; MARY JEAN BURKE, FIRST EXECUTIVE VICE 
  PRESIDENT, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-
           CIO; AND AMY COSTANTINO, FEDERAL EMPLOYEE

                  STATEMENT OF COLLEEN KELLEY

    Ms. Kelley. Thank you very much, Chairman Davis. I 
appreciate your hearing or convening this hearing and having an 
opportunity to testify.
    When the 1993 Family and Medical Leave Act was passed, it 
was viewed as an important step in helping Americans balance 
family needs and work needs, but it was also just a first step. 
Since that time, it has become clear that many who would take 
advantage of time off for family or medical reasons have not 
done so because they were not able to forego that income.
    We have to ask ourselves, is it fair to have a benefit that 
many Federal employees cannot afford to take advantage of?
    It is time for the Federal Government, as the largest 
employer in the country, to step up and make family leave real, 
not just a mirage that few can afford to use.
    NTEU applauds Congresswoman Maloney's efforts in H.R. 3799 
and your support to provided this paid parental leave. Being 
able to substitute any leave without pay under FMLA with 8 
weeks of paid leave in addition to any leave accrued or 
accumulated will make a significant difference in the lives of 
both parent and child.
    According to Columbia University's Clearinghouse on 
International Developments in Child, Youth and Family Policies, 
some 128 countries currently provide paid and job-protected 
leave each year. The average paid leave is for 16 weeks which 
includes pre and post-birth time off. The United States, of 
course, has none.
    In a time when there are dire predictions about being able 
to attract and retain enough employees to do the work of the 
government, when it has become clear that the Federal 
Government is going to have step up in order to continue to 
attract the best and the brightest, this paid family and 
medical leave can provide a valuable incentive. Let me share 
with you the situations of just two NTEU members that exemplify 
the deficiencies of the present system.
    The first had her fourth child 2 years ago and took 
advanced sick leave to recover from the birth. She needed to 
maintain her income.
    Shortly after she returned to work, she was diagnosed with 
cancer. She had surgery and then chemotherapy. She was out for 
6 months.
    Two of her children have asthma and are sick frequently. 
She now wears a heart monitor and must be checked by a doctor 
every few weeks. She still owes 60 hours of sick leave. Now she 
must take leave without pay every time she or the children need 
to go to the doctor, and she cannot afford that.
    Another member took advanced sick leave to recover from her 
pregnancy and birth of her child. She still owes 162 hours.
    Her mother was diagnosed with breast cancer and, with two 
small children at home, she worked overtime to get the 
compensatory time to be able to stay home with her mother.
    She has postponed surgery she needs twice because she 
cannot afford to take leave without pay. She wants to be able 
to take time off to be involved in her children's activities, 
but she cannot see a time when that would feasible.
    NTEU strongly supports the 8 weeks paid parental leave and 
Congresswoman Maloney's bill, H.R. 3799.
    Sadly, even with that substantial benefit, people will 
still find themselves in trouble when a serious health 
condition befalls them or a loved one. Some form of an 
insurance program that replaces pay would offer support 
employees to recover from an illness, to care for adult family 
members, helping to reduce or avoid the cost of nursing, to aid 
in the recovery of a child or to care for a relative wounded in 
the war.
    Paid parental leave in combination with a short-term 
disability insurance program would provide broader coverage for 
these kinds of situations, both parental and medical, that we 
wanted to address when the Family and Medical Leave Act was 
first passed.
    Quite some time ago, OPM promised an outline of such a 
short-term disability insurance plan that would be available to 
Federal employees, but we have yet to see one developed. Today 
is the first I have heard that they have some details out there 
in a design that obviously was drafted without any union input, 
and the $40 per pay period cost that they cite is one that will 
make this a program that will not be used by Federal employees.
    State programs, such as the one operating in California, 
have resulted in an insurance benefit that everyone can afford, 
not just the wealthy.
    We would be happy to join in any discussions of providing 
such a program on a Federal level, and we welcome your 
leadership, Mr. Chairman, in getting the facts and in pursuing 
a study on a short-term disability program to replace wages 
lost when taking family or medical leave at much less cost than 
$40 a pay period and, preferably, at no cost to employees.
    In conclusion, it is time for the United States to catch up 
with the rest of the world by offering paid family and medical 
leave. Wouldn't it be nice if the Federal Government, once 
thought of as pioneering and inventive in its personnel 
programs, was at the forefront of this growing movement?
    Of course, I would be glad to answer any questions, but if 
it would not be inappropriate I would also, Mr. Chairman, like 
to thank you for your introduction of the bill to increase the 
age of children of Federal employees who can continue to be 
covered by FEHB insurance. This is something that has been 
identified as a very real need for employees, and I thank you 
for your leadership on that issue as well as so many others.
    Thank you.
    [The prepared statement of Ms. Kelley follows:]

    [GRAPHIC] [TIFF OMITTED] T6711.032
    
    [GRAPHIC] [TIFF OMITTED] T6711.033
    
    [GRAPHIC] [TIFF OMITTED] T6711.034
    
    [GRAPHIC] [TIFF OMITTED] T6711.035
    
    [GRAPHIC] [TIFF OMITTED] T6711.036
    
    Mr. Davis of Illinois. Thank you very much, Ms. Kelley, and 
we will proceed to Ms. Burke.

                  STATEMENT OF MARY JEAN BURKE

    Ms. Burke. On behalf of the more than 600,000 Federal and 
District of Columbia employees our union represents, I am 
delighted to be here today to testify on the subject of paid 
parental leave for Federal employees.
    Despite the protections of the Family and Medical Leave 
Act, Federal workers are among those who must choose between a 
paycheck and meeting their family obligations because they 
currently have no paid parental leave. H.R. 3799 would change 
this to provide income support for up to 8 weeks of parental 
leave, and AFGE strongly supports this legislation.
    Virtually all research on child development and family 
stability supports the notion that parent-infant bonding during 
the earliest months of life is crucial. Children who form 
strong emotional bonds or attachment with their parents are 
most likely to do well in school, have positive relations with 
others and enjoy good health throughout their lifetimes.
    Spending time with a newborn or newly adopted child 
shouldn't be viewed as a personal choice or a luxury that only 
the rich should be able to afford.
    The only reason a new parent would ever go back to work 
immediately after the birth or an adoption of a child, even 
with the protections of the FMLA, is because she or he could 
not do without his or her paycheck. Far too many workers in 
both the Federal Government and outside must make this terrible 
choice. H.R. 3799 would allow Federal employees never to have 
to make this choice.
    Some would make distinctions among adoptive parents, birth 
parents, mothers and fathers. These distinctions are mostly 
irrelevant when the question is whether the worker should be 
able to continue to receive her salary during leave taken 
solely to care for a new family members. AFGE also supports 
this legislation for taking as given that all parents, male, 
female and adoptive--deserve equal treatment.
    Others have proposed creating employer-finance short-term 
disability insurance as a means to provide paid maternity leave 
for birth mothers. This is not a solution because it 
discriminates against new fathers and adoptive mothers.
    OPM, in 2001, claimed that paid parental leave for Federal 
employees was unnecessary because they have adequate options 
and opportunities to paid parental leave through the 
accumulated sick and annual leave and leave transfer and bank 
programs. OPM's findings are both irresponsible and false.
    First, employees must accumulate sick leave to support 
themselves and their families if they are unable to work for a 
certain period. Second, Federal employees are only able to 
accumulate a maximum of 30 days of annual leave, not enough 
time to provide care for a newborn or newly adopted child, an 
unlikely amount of time that the young workers most likely to 
become parents to accrue.
    Other Federal workers, such as VA nurse, accumulate annual 
leave under a totally different process.
    OPM's blithe attitude betrays a vast ignorance of what it 
takes to raise a family successfully while holding down a job 
at a Federal agency. Sick leave is for when a worker is sick. 
Annual leave is when a worker needs mental and physical 
renewal. Parental leave is for when a worker becomes a parent.
    Some will undoubtedly respond to paid parental leave bills 
with cries of fiscal prudence and affordability. No one can 
accurately project the cost of extending this benefit to new 
parents, but we can speculate on the categories of the cost of 
failing to do so.
    How much productivity is lost when a parent returns to work 
before they have found proper day care for a newborn or a newly 
adopted child or when a Federal employee must come to work when 
she is ill because she has used up all her sick leave when 
adopting a child she had 8 months ago?
    How much does it cost the Federal Government when a good 
worker, trained at taxpayers' expense, decides to leave the 
Federal work service for another employer who does offer paid 
parental leave?
    I also want to bring to your attention the dilemma of 
approximately 43,000 Federal workers who did not receive the 
benefits of paid parental leave if H.R. 3799 is enacted into 
law, the Transportation Security Officers or TSOs who work on 
our front line of national security at our Nation's airports, 
screening passengers and baggage for threats to aviation 
safety.
    Federal courts have interpreted a footnote in the law, 
creating the TSO position as allowing the TSA Administrator the 
authority to deny Federal workplace protections to TSOs. The 
TSO members, AFGE reports that their applications for FMLA are 
often denied arbitrarily and that they face retaliation and 
unfair discipline for attempting to exercise their rights under 
FMLA.
    Unless TSOs are granted the same FMLA and other workplace 
protections as other Federal workers, including the right to 
bargain collectively, TSA's incredibly high attrition rate will 
continue and aviation safety will be in peril.
    The time has come for the Federal Government to set the 
standard for the U.S. employers are paid parental leave. It is 
clear that left to their own discretions, employers will not 
extend this crucial benefit to their employees unless their 
competitors or the law requires it of them.
    The benefits to children and families of 8 weeks of paid 
parental leave are enormous and long-lasting. AFGE urges the 
Congress to do the right thing and pass H.R. 3799.
    This concludes my statement. Of course, I would be happy to 
answer any questions.
    [The prepared statement of Ms. Burke follows:]

    [GRAPHIC] [TIFF OMITTED] T6711.037
    
    [GRAPHIC] [TIFF OMITTED] T6711.038
    
    [GRAPHIC] [TIFF OMITTED] T6711.039
    
    [GRAPHIC] [TIFF OMITTED] T6711.040
    
    [GRAPHIC] [TIFF OMITTED] T6711.041
    
    [GRAPHIC] [TIFF OMITTED] T6711.042
    
    Mr. Davis of Illinois. Thank you very much, and we will 
proceed to Ms. Costantino.

                  STATEMENT OF AMY COSTANTINO

    Ms. Costantino. Chairman Davis, Vice Chairman Maloney and 
members of the committee, I thank you for the invitation to 
testify today. I am honored to be here.
    I have been a member of the Federal work force for 16 
years. I am here today to ask Congress to consider a paid 
parental leave benefit for the Federal work force. This is a 
highly desired benefit for Federal employees and would be an 
effective tool in recruiting and retaining a high quality 
Federal work force.
    Last summer, I unexpectedly went into labor even though I 
was just 6 months pregnant. My twin sons, Louis Anthony and 
Benjamin Abraham, were born on June 9th at 3\1/2\ months 
premature. Both of my sons had to be intubated at birth and 
placed on conventional ventilators.
    Their birth weights were 1 pound, 7 ounces and 1 pound, 11 
ounces, and their immune systems were nonexistent. This is how 
my sons began their 90 day stay at the Georgetown University 
Neonatal Intensive Care Unit.
    I am pleased to tell you today that both of my sons are 
healthy, active and curious, exactly what every parent desires 
for their child.
    As a new mother facing the most difficult challenge of my 
life, I was immediately forced to weigh my new personal 
responsibilities against my existing professional 
responsibilities. We had to make tough decisions about the 
immediate care for our children.
    Each day, we learned more about what our sons had to face: 
further therapy, blood transfusions, cranial sonograms, 
fluctuating heart rates, apneas and respiratory distress 
syndrome, to name a few. We need to figure out immediately how 
we would be able to care for our sons during and beyond their 
hospital stay.
    My husband and I both work full time for employers that 
have generous leave policies, but we still had to make the 
decision of when to use them. I had two choices. The first was 
to use the leave I had accrued over the past 16 years which 
would have given me the opportunity to spend all of my time in 
the NICU.
    My other choice was to save the paid leave I had accrued so 
I could be home with my sons when they were released from the 
hospital. This would mean returning to work immediately and 
visiting my sons around my work schedule.
    After much deliberation and angst, we chose the second 
option.
    We knew our sons were receiving outstanding care. However, 
there are certain things only a parent can provide, especially 
the mother. If I were able to remain with my sons throughout 
the day, I would have been able to attend to all of their 
cyclical cares which include feeding, holding, changing and 
kangaroo care, which is holding the baby on my chest, skin to 
skin, to keep him warm. There is a dramatic decrease in the 
infant mortality rate among premature babies who are held and 
talked to.
    I will never forget feeding my sons after they were born. I 
would put no more than a thimble full of fortified breast milk 
in a syringe and feed my sons through a tube.
    The NICU is a very busy place and, as talented and 
committed as the doctors and nurses were, they were still 
limited in the amount of time they were able to spend with each 
patient.
    Feeding my sons was one of the first bonding moments I 
shared with them, and I am certain that feeding my sons had a 
stronger impact than taping the feeding tubes to the sides of 
isolettes and having them eat alone which is what happened when 
I was not present.
    There were pressing issues that needed our immediate 
attention. Treatments had to be given expeditiously. We needed 
to be present to understand and approve them and, of course, to 
support our sons.
    As our sons became more stable, it was incumbent upon us to 
spend more time with them, though they were still not mature 
and developed enough to leave the NICU.
    Finally, our sons were able to come home. It was a special 
time for our family. Since I had decided not to exhaust my paid 
leave during my sons' stay in the NICU, I was able to use it 
when they came home. I was fortunate enough to have accrued 
enough paid sick and annual leave to allow me to take off for 2 
months.
    I often wonder, though, if I made the right decision. Maybe 
I should have used my paid leave while my sons were in the 
NICU.
    The Paid Parental Leave Act would create a paid parental 
leave benefit which would have far exceeded its value in terms 
of my compensation. It would have given me the opportunity to 
be with my children and the peace of mind that I had given them 
the best possible start in life.
    The Family and Medical Leave Act provides for up to 12 
weeks of unpaid leave which was not a viable option for our 
family. The followup care after our sons came home from the 
hospital required visits to the pediatrician, apnea clinic, 
neurosurgeon, pediatric surgeon, ophthalmologist, audiologist, 
developmental clinic, occupational and physical therapist and 
three surgeries. The previously mentioned appointments alone 
would have exhausted all of the leave that I had earned over 16 
years.
    We are very fortunate to have the support of family who 
helped us through this time, and my husband and I are both 
extremely grateful for the caring and thoughtful approach taken 
by our employers and supervisors. I feel my agency did 
everything they could under the existing law to make the 
situation the best it could be for my family.
    I am here today to ask Congress to consider providing paid 
parental benefits to the Federal work force. This benefit would 
enhance our government's ability to recruit and retain a high 
quality Federal work force.
    Thank you for giving me the opportunity to testify before 
you today.
    [The prepared statement of Ms. Costantino follows:]

    [GRAPHIC] [TIFF OMITTED] T6711.043
    
    [GRAPHIC] [TIFF OMITTED] T6711.044
    
    [GRAPHIC] [TIFF OMITTED] T6711.045
    
    [GRAPHIC] [TIFF OMITTED] T6711.046
    
    [GRAPHIC] [TIFF OMITTED] T6711.047
    
    [GRAPHIC] [TIFF OMITTED] T6711.048
    
    Mr. Davis of Illinois. Well, thank you very much, and I 
thank all of you.
    On our way to vote, one of our colleagues implied that this 
was 8 additional weeks of vacation. Let me ask how you all 
would respond to that notion, beginning with you, Ms. Kelley.
    Ms. Kelley. I don't think I can respond on the record to 
that, Mr. Chairman. [Laughter.]
    I think I would be inappropriate.
    Ms. Costantino. I respectfully decline.
    Ms. Kelley. That says it all.
    Ms. Burke. I agree with Ms. Kelley.
    Ms. Kelley. I actually think it is very frightening that 
anyone who would be making a decision like this, even if it is 
a position they disagree with, even if it is legislation they 
disagree with. The idea that it could be framed that way just 
shows, I would say, not only lack of information and knowledge, 
but I could say a lack of caring or human compassion also, and 
I would think the comment is absolutely inappropriate.
    Mr. Davis of Illinois. Well, let me ask either one of you 
or all of you, OPM stated in its testimony that new employees 
or people who have exhausted all of their annual leave and sick 
leave should borrow leave or borrow in advance and say, ``let 
me borrow, and then as I accumulate it I can pay it back.''
    What are your thoughts on this?
    Ms. Kelley. In my experience, there are situations where 
that is an appropriate tool and it does help an employee, but 
it is in very limited situations, because even in the two 
examples that I cited in my testimony, what the position that 
puts an employee in is if it is something that requires 
continuing care of attention--it is not an isolated incident 
that will end in 1 week or 2 weeks or 4 weeks--it puts the 
employee in a situation where they never are able to pay back 
the leave.
    And, then any other absences that they have to take, they 
are back in the situation of leave without pay again or making 
them make choices as with one of NTEU's members that needs 
surgery and twice she has had to postpone it because she cannot 
afford. She has borrowed. She has advanced sick leave. She has 
not been able to pay it all back yet, and she cannot afford to 
be on leave without pay to go and have the surgery that she 
needs.
    Ms. Burke. Yes. I would just add, just to let you know, at 
our local level, the first line supervisors do annual leave and 
sick leave. If you were going to get advanced annual leave, 
that goes up to the director's level. So it is a lot more 
stringent in order to even get it approved, and it kind of 
depends on what occupation you are in and the position and 
everything.
    So it is not just a free rein of who gets it and who 
doesn't as well.
    I agree with Ms. Kelley in the fact that once you start in 
this pattern, it is hard for employees to pay all that back as 
they go along in the work force.
    Mr. Davis of Illinois. Well, do you think that short-term 
disability would take care or does suffice for family leave?
    Ms. Kelley. I don't think it is an either/or, I think it 
should be a both.
    I think the paid parental leave, as offered in 3799, should 
be passed as is, and I think that is a giant step forward in 
addressing the situations that are so real among the Federal 
work force. But, I think a short-term disability policy to 
supplement that as well as other FMLA situations so that it is 
much broader and not just about parental leave are needed.
    But I have to say, I was very surprised and disappointed to 
hear what OPM reported this morning of the draft design that 
they are going to be proposing, because I see it as a program 
that will not benefit Federal employees if the program is 
rolled out the way Ms. Kichak described it this morning, and 
NTEU would not support that program.
    Mr. Davis of Illinois. Well, let me ask you, Ms. Burke and 
Ms. Kelley, can you think of any other benefit of family leave? 
For example, would you view it as being beneficial in 
recruitment of individuals to come into the Federal work force?
    Ms. Burke. Last year, the Veterans Health Administration, 
and I hope I am quoting this correctly, noted that of their 
quit rates for registered nurses--and of course we all know how 
much we need registered nurses across the county--cited that 75 
percent of those people left within the first 5 years.
    So when you take into account that VA can't be a market 
leader, the next thing is to look at the benefit package, and 
it is attractive to people, especially with women starting 
families later in life and having higher risk pregnancies, that 
there is a sense of security that this bill would provide for.
    Mr. Davis of Illinois. Ms. Costantino, had this type of 
benefit been in effect when it was time for your children to be 
born, would you have made any different decisions than what you 
ended up making?
    Ms. Costantino. Yes. This benefit would have allowed me to 
not have to make the difficult decision, and I would have been 
able to have been at the hospital with my sons and use this 
benefit while they are in the hospital and use my accrued leave 
when they came home.
    Mr. Davis of Illinois. And so, it would have been of 
serious benefit to you and your family?
    Ms. Costantino. Absolutely.
    Mr. Davis of Illinois. From any way that you would look at 
it?
    Ms. Costantino. Yes.
    Mr. Davis of Illinois. Well, thank you all very much.
    Mrs. Maloney.
    Mrs. Maloney. First of all, I want to thank you all for 
your wonderful testimony, and I would like to ask Amy 
Costantino.
    Thank you for sharing your personal story with us. It was 
quite an ordeal to have twins, and you had to do what many 
Federal workers have to do. You cobbled together your annual 
leave, your sick leave, unpaid leave in order to meet your 
parenting needs. As you mentioned, you exhausted all your leave 
to care for your children.
    From your story, I believe you are fortunate that you did 
become ill in the particular situation you were in.
    May I ask you, where does your leave stand now and what are 
your contingency plans, say, if the children become sick again 
seriously? What could you do?
    Have you exhausted all of your leave in all of that?
    Ms. Costantino. I have not exhausted all of my leave. I 
have planned, but I would probably have to take leave without 
pay which would be a hardship for our family.
    Mrs. Maloney. Danny and I were going to the floor, and we 
were talking about the bill. One of our esteemed colleagues 
called it--what did he call it? Vacation pay.
    Another one I was talking to said, well, you know, why 
don't they cobble together their sick leave and their vacation 
leave? That is what should cover it.
    So what is your answer to that, anyone?
    Ms. Kelley. I think there are just so many very real 
examples out there and not just in the Federal Government. 
Obviously, those are the examples that we have firsthand 
knowledge of, but there are so many examples of where that just 
isn't viable and where employees have had to make choices as we 
have heard described here today in very real terms and 
decisions that employees are having to face every day, whether 
they lose their job and risk losing their job or can afford to 
not have the income.
    Those are choices that, I guess, I would suggest that--I 
would like to see what your colleagues who made these comments 
said if they were in the same situation, how it is they would 
feel if someone made that comment to them or about their son or 
their daughter or their grandson or their granddaughter.
    Mrs. Maloney. I appreciate it.
    I just have no further questions.
    I think this is a good bill. I hope the chairman will 
support it and mark it up and send it to the full committee.
    I think we have had a very good hearing today. The support 
for it, based on science and need, is there.
    We are trailing the world, not leading the world, in terms 
of providing this very important benefit to families. For a 
country that spends so much time talking about family values, 
it is time that we took some steps to take the word out of 
rhetoric and put it into the lives of employees so that they 
can better balance work and family.
    Statistics show most men and women have to work. That is 
what it takes to put the food on the table and pay the rent. 
We, as a government, in my opinion, should have more hearings 
like this, looking at ways that we can balance work and family 
and really show that we are a government that cares about 
family values and wants to work with parents to allow them to 
spend more time with their children.
    I know it is heartbreaking when you can't get time to go to 
a doctor's appointment or you can't be at the school for the 
teacher's appointment and you can't be there for really 
important purposes because you are working.
    I really believe that if there was more flexibility, you 
would have a more vibrant and committed work force to be there 
for the issues before us.
    I want to thank you for what you do every day, and I am 
very proud of the Federal work force. You do a great job.
    Thank you, Mr. Chairman, for allowing me to join you today 
on this important hearing.
    Mr. Davis of Illinois. Thank you very much. It is indeed a 
pleasure.
    I do have one additional question I would like to ask you, 
Ms. Burke. You stated in your testimony that OPM's 2001 study 
failed to survey any of the employees who had actually left 
service during the years when they were having children. Are 
you aware of any ongoing effort to survey this group of 
individuals?
    Ms. Burke. No, sir, I am not, but we could get back to you 
if I found out something.
    Mr. Davis of Illinois. Well, we would appreciate that.
    Ms. Burke. OK.
    Mr. Davis of Illinois. I think it could, in fact, be 
beneficial to know what the experiences have been and how they 
have felt about whether or not this, in any way, was part of 
the reason that they decided to leave.
    Again, let me thank all of you for coming and testifying, 
participating with us.
    I certainly want to thank my colleague, Representative 
Maloney, for her introduction and the work that she has done on 
this measure for a number of years.
    It has been a pleasure, Representative Maloney, to share 
another hearing with you, and I look forward to doing so in the 
future.
    With that, we will declare that this hearing is adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee and committee 
were adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6711.049

[GRAPHIC] [TIFF OMITTED] T6711.050

[GRAPHIC] [TIFF OMITTED] T6711.051

[GRAPHIC] [TIFF OMITTED] T6711.052

[GRAPHIC] [TIFF OMITTED] T6711.053

[GRAPHIC] [TIFF OMITTED] T6711.054

[GRAPHIC] [TIFF OMITTED] T6711.055

[GRAPHIC] [TIFF OMITTED] T6711.056

[GRAPHIC] [TIFF OMITTED] T6711.057

[GRAPHIC] [TIFF OMITTED] T6711.058

[GRAPHIC] [TIFF OMITTED] T6711.059

[GRAPHIC] [TIFF OMITTED] T6711.060

[GRAPHIC] [TIFF OMITTED] T6711.061

[GRAPHIC] [TIFF OMITTED] T6711.062

[GRAPHIC] [TIFF OMITTED] T6711.063

[GRAPHIC] [TIFF OMITTED] T6711.064

[GRAPHIC] [TIFF OMITTED] T6711.065

[GRAPHIC] [TIFF OMITTED] T6711.066

[GRAPHIC] [TIFF OMITTED] T6711.067

[GRAPHIC] [TIFF OMITTED] T6711.068

[GRAPHIC] [TIFF OMITTED] T6711.069

[GRAPHIC] [TIFF OMITTED] T6711.070

[GRAPHIC] [TIFF OMITTED] T6711.071

[GRAPHIC] [TIFF OMITTED] T6711.072

[GRAPHIC] [TIFF OMITTED] T6711.073

[GRAPHIC] [TIFF OMITTED] T6711.074

[GRAPHIC] [TIFF OMITTED] T6711.075

[GRAPHIC] [TIFF OMITTED] T6711.076

[GRAPHIC] [TIFF OMITTED] T6711.077

[GRAPHIC] [TIFF OMITTED] T6711.078

[GRAPHIC] [TIFF OMITTED] T6711.079

                                 <all>

</pre></body></html>
